No. 19-2
IN THE

~upreme <!Court of tbe Wniteb ~tate~
JACKIE HOSANG LAWSON,

Petitioner,
V.

FMR LLC, ET AL. ,

Respondents.
CERTIFICATE OF SERVICE
I hereby certify that I am a member in good standing of the bar of this Court and
that on this 29th day of July, 2019, I caused three copies of the Brief in Opposition to be
served by third-party commercial carrier on the individual identified below, and caused
an electronic version to be transmitted to the individual identified below, pursuant to
Rule 29.5 of the Rules of this Court. All parties required to be served have been served.
Jackie Hosang Lawson
27 Kilsyth Road
Brookline, MA 02445
(617) 739-4088
jackielaw88@comcast.net
Pro Se Petitioner

